Record Press Inc., 228 West 36th Street, New York, N.Y. 10018 ■
Tel: (212) 618-4848 ■ Fax No. (212) BDB-3141

STATE OF NEW YORK.
SS:

85866

AFFIDAVIT DF SERVICE

COUNTY OF NEW YORK
Howard Daniels being duly sworn. deposes and says that deponent is not party to the action. and is over 18 years of age.
That on the 22nd day of January 2021 deponent served 3 copies of the within
BRIEF IN SUPPORT DF RESPONDENTS FDR AMICUS CURIAE NATIONAL CITIZENSHIP
AND IMMIGRATIDN SERVICES COUNCIL 118
upon the attorneys at the addresses below. and by the following method:
BY FEDERAL EXPRESS NEXT BUSINESS DAY DELIVERY

Jeffrey B. Wall
United States Department of Justice
850 Pennsylvania Avenue. NW
Washington. District of Columbia 20530
(202) 514-2217

Judy Rabinovitz
American Civil Liberties Union
125 Broad Street. 18th Floor
New York. NY l0004
(212) 548-2618

Attorneys for Petitioner

Attorneys for Respondents

I. Howard Daniels. declare under penalty of perjury under the laws of the United States of America that the foregoing is true and
correct. executed on January 22. 2021. pursuant to Supreme Court Rule 28.5(c). All parties required to be served. have been
served.
Howard Daniels

Sworn to me this

January 22. 2021
Alessandra Kane
Notary Public. State of New York
No. DIKA6340521
!lualified in Richmond County

J;::;;i&
Notary Public

Case Name: Wolf v. Innovation Law Lab
Docket/Case No. 18-1212

